No. 19A- ______
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WILLIAM P. BARR, IN HIS OFFICIAL CAPACITY AS ATTORNEY GENERAL OF
THE UNITED STATES, AND THE FEDERAL COMMUNICATIONS COMMISSION,
APPLICANTS
v.
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS, INC., ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT, via email and first-class mail, postage prepaid, this
6th day of September, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 6, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST

William E. Raney
COPILEVITZ LAM & RANEY, PC
Suite 300
310 West 20th Street, Suite 300
Kansas City, MO 64108-2025
816-472-9000
braney@clrkc.com
Charles George
WYRICK ROBBINS YATES & PONTON LLP
4101 Lake Boone Trail, Suite 300
Raleigh, NC 27607
919-781-4000
cgeorge@wyrick.com

